                                                  OFFICE OF JOB CORPS



    Office of Inspector General—Office of Audit
5




                                                  PERFORMANCE AUDIT OF THE LAREDO JOB
                                                  CORPS CENTER




                                                                          Date:   September 28, 2007
                                                                 Report Number:   09-07-002-01-370
                                                       U.S. Department of Labor
BRIEFLY…                                               Office of Inspector General
                                                       Office of Audit

Highlights of Report Number 09-07-002-01-370,          WHAT OIG FOUND
Performance Audit of the Laredo Job Corps              We concluded Laredo officials complied with
Center, to the National Director, Office of Job        requirements in reporting performance for
Corps, dated September 28, 2007.                       outreach and admissions, student
                                                       accomplishments, and placements. However,
WHY READ THE REPORT                                    Laredo officials did not comply with requirements
The report discusses the results of a performance      in reporting student attendance. As a result,
audit of the Laredo Job Corps Center which is          Laredo officials retained students in the reported
operated by the Career Systems Development             On-Board-Strength in violation of Job Corps
Corporation (CSD). The audit assessed whether          requirements and, per the contract, CSD owes
the Center’s performance and financial results         $96,962 in liquidated damages. In addition,
were reported accurately and in compliance with        Laredo officials did not comply with requirements
requirements.                                          for admitting participants to Job Corps.
                                                       Consequently, without background checks, Laredo
WHY OIG CONDUCTED THE AUDIT                            officials did not know whether participants were
Our audit objectives were to answer the following      wanted by law enforcement, were on probation or
two questions:                                         parole, were under a suspended sentence, or were
                                                       under supervision by any agency of government.
   1. Did CSD officials comply with laws,
      regulations, contracts, policies, and            Concerning CSD’s compliance with financial
      procedures in its reported performance           requirements, nothing came to our attention which
      measurements?                                    indicated Laredo officials did not comply with laws,
                                                       regulations, contracts, policies, and procedures in
   2. Did CSD officials comply with laws,              its reported financial activity.
      regulations, contracts, policies, and
      procedures in its reported financial activity?   WHAT OIG RECOMMENDED
                                                       We made four recommendations to the National
READ THE FULL REPORT                                   Director of Job Corps to require Laredo officials to:
To view the report, including the scope,               reconcile bed check reports and rosters to Center
methodology, and full agency response, go to:          Information System’s input data, approve unpaid
                                                       administrative leave only for allowable reasons,
http://www.oig.dol.gov/public/reports/oa/2007/09-      recover $96,962 in liquidated damages from CSD,
07-002-01-370.pdf                                      and obtain background checks on all incoming
                                                       students.

                                                       HOW AUDITEE RESPONDED
                                                       The National Director, Office of Job Corps,
                                                       responded that the Dallas Regional Office of Job
                                                       Corps has requested the Laredo Center Director to
                                                       reconcile bed check reports and rosters. In
                                                       addition, Dallas Regional Office will instruct the
                                                       Laredo Center to provide training on leave policy
                                                       as presented in the Policy and Requirements
                                                       Handbook. Further, Job Corps will begin the
                                                       administrative process to secure the necessary
                                                       information that relates to the recovery of
                                                       liquidated damages. Lastly, Job Corps will instruct
                                                       the Laredo Center to conduct background checks
                                                       on all Job Corps applicants.
                                                               U.S. Department of Labor – Office of Inspector General



Table of Contents

Executive Summary ...................................................................................................... 1

Assistant Inspector General’s Report ......................................................................... 4
          Finding 1 – Laredo officials did not properly report On-Board Strength
                      (OBS) attendance. ............................................................................. 5
          Finding 2 – Laredo officials did not always execute proper procedures for
                      admitting students............................................................................ 11

Exhibits ........................................................................................................................ 13
          Exhibit 1 Laredo Job Corps Center Program Year 2005 Reported
                      Performance Measures Results....................................................... 14
          Exhibit 2 Laredo Job Corps Center Program Year 2005 Expenditures............... 15

Appendices.................................................................................................................. 16
          Appendix A Background ..................................................................................... 17
          Appendix B Objectives, Scope, Methodology, and Criteria ................................ 18
          Appendix C Acronyms and Abbreviations .......................................................... 20
          Appendix D Agency Response to Draft Report .................................................. 21




                                                                                                Laredo Performance Audit
                                                                                              Report No. 09-07-002-01-370
                                          U.S. Department of Labor – Office of Inspector General



Executive Summary
We conducted a performance audit of the Laredo Job Corps Center (Laredo) located in
Laredo, Texas. Laredo is one of ten Job Corps centers operated by Career Systems
Development Corporation (CSD) for the Department of Labor.

Our audit objectives were to answer the following two questions:

   1. Did CSD officials comply with laws, regulations, contracts, policies, and
      procedures in its reported performance measurements?

   2. Did CSD officials comply with laws, regulations, contracts, policies, and
      procedures in its reported financial activity?

Our audit covered Laredo’s performance and financial reporting for Program Year (PY)
2005, which began July 1, 2005, and ended June 30, 2006.

Results

We concluded Laredo officials complied with laws, regulations, contracts, policies, and
procedures in reporting performance regarding outreach and admissions, student
accomplishments, and placements. However, we concluded that Laredo officials did
not comply with laws, regulations, contracts, policies, and procedures in reporting
student attendance. As a result, Laredo officials retained students in its reported On-
Board-Strength (OBS) in violation of Job Corps requirements and, per their contract,
CSD owes $96,962 in liquidated damages.

Specifically, we concluded Laredo officials’s controls over student attendance needed to
be improved. Students’ accountability was not fully documented and did not comply
with Job Corps’ Policy and Requirements Handbook (PRH) requirements. In a sample
of 117 students we reviewed, Laredo officials improperly retained 26 students longer
than allowed under PRH requirements and should not have included them in the OBS.
We found Laredo officials:

   •   did not report all student’s absences,
   •   placed students on Present for Duty Off Center (PDOF) for Work Based Learning
       (WBL) without meeting Job Corps requirements,
   •   placed students on Unpaid Administrative Leave (UPAL) in violation of Job Corps
       requirements, and
   •   permitted students to exceed the allowable number of Absent Without Leave
       (AWOL) days.

We determined that Laredo officials retained these students in the program for 1,571
days in violation of Job Corps requirements, which overstated OBS. According to


                                                                     Laredo Performance Audit
                                           1                       Report No. 09-07-002-01-370
                                            U.S. Department of Labor – Office of Inspector General

Laredo’s contract with Job Corps, the overstated OBS, by 1571 days, results in CSD
owing liquidated damages of $96,962.

In addition, Laredo officials did not comply with laws, regulations, contracts, policies,
and procedures for performing background checks. Specifically, Laredo officials did not
consistently obtain background checks for all incoming students. In our judgmental
sample of 30 participants, Laredo officials did not perform background checks for 23
participants. Without the background checks, Laredo officials did not comply with the
PRH requirements and could not ensure entering students were not wanted by law
enforcement agencies, on probation, on parole, under a suspended sentence, or under
the supervision of any agency.

Finally, nothing came to our attention to indicate Laredo officials did not comply with
laws, regulations, contracts, policies, and procedures in its reported financial activity.


Recommendations

We made four recommendations to the National Director of Job Corps. In summary, we
recommended the National Director require Laredo to:

   1. Reconcile bed check reports and rosters to CIS input data.

   2. Approve UPAL for only PRH allowable reasons.

   3. Pay $96,962 in liquidated damages.

   4. Obtain background checks on all incoming students.


Auditee Response and OIG Conclusion

The National Director, Office of Job Corps, generally agreed with our recommendations
by stating that the Dallas Regional Office of Job Corps would take the following actions:

   •   Request the Laredo Job Corps Center Director to reconcile the bed check reports
       and rosters.

   •   Instruct the Laredo Job Corps Center to provide training on the leave policy as
       presented in the Policy and Requirements Handbook.

   •   Begin the administrative process of securing the necessary information related to
       the recovery of $96,962 in liquidated damages.

   •   Ensure the Laredo Job Corps Center staff conduct background checks on all Job
       Corps applicants as instructed in the Policy and Requirements Handbook.


                                                                       Laredo Performance Audit
                                              2                      Report No. 09-07-002-01-370
                                       U.S. Department of Labor – Office of Inspector General

The OIG agrees that these corrective actions are appropriate and we consider the
recommendations resolved and open. To close these recommendations, the Office of
Job Corps needs to provide documentation showing the corrective actions have been
completed.




                                                                  Laredo Performance Audit
                                         3                      Report No. 09-07-002-01-370
                                           U.S. Department of Labor – Office of Inspector General

U.S. Department of Labor                 Office of Inspector General
                                         Washington, D.C. 20210




                        Assistant Inspector General’s Report



Esther R. Johnson
National Director
Office of Job Corps
U. S. Department of Labor
200 Constitution Avenue, N.W.
Washington, DC 20210


We conducted a performance audit of the Laredo Job Corps Center (Laredo) located in
Laredo, Texas. Laredo is one of ten Job Corps centers operated by the Career
Systems Development Corporation (CSD) for the Department of Labor.

Our audit objectives were to answer the following two questions:

   1. Did CSD officials comply with laws, regulations, contracts, policies, and
      procedures in its reported performance measurements?

   2. Did CSD officials comply with laws, regulations, contracts, policies, and
      procedures in its reported financial activity?


Our audit covered Laredo’s performance and financial reporting for Program Year (PY)
2005, which began July 1, 2005, and ended June 30, 2006. For PY 2005, Laredo
reported performance data which produced performance measures Job Corps required
(Exhibit 1) and reported expenses of $5,441,615 (Exhibit 2).

For PY 2005, CSD officials did comply with laws, regulations, contracts, policies, and
procedures in reporting performance for outreach and admissions, student
accomplishments, and placements. However, for PY 2005, CSD officials did not comply
with laws, regulations, contracts, policies, and procedures in:

   •   Reporting student attendance (Finding 1)

   •   Admitting participants to Job Corps (Finding 2)

Specifically, CSD officials retained 26 students in its On-Board-Strength (OBS)
calculations in violation of Job Corps’ Policy and Requirements Handbook (PRH)

                                                                         Laredo Performance Audit
                                             4                         Report No. 09-07-002-01-370
                                          U.S. Department of Labor – Office of Inspector General

requirements and did not obtain background checks on students entering the program.
We reviewed 117 students and identified 52 students with either unreported absences,
inappropriate use of unpaid administrative leave (UPAL), unsupported Present for Duty
Off Center (PDOF), or being absent without leave (AWOL) excessively. Of the 52
students, 26 were required per the PRH to have been separated and had 1,571
questionable attendance days.. The lack of the required student separation resulted in
$96,962 in liquidated damages owed by CSD.

In addition, Laredo officials did not comply with laws, regulations, contracts, policies,
and procedures for performing background checks. Specifically, Laredo officials did not
consistently obtain background checks for all incoming students. As a result of not
obtaining background checks, Laredo officials were in a vulnerable position of not
knowing whether participants were wanted by law enforcement agencies, on probation
or parole, under a suspended sentence, or under the supervision of any agency.

Further, nothing came to our attention that indicated CSD did not comply with laws,
regulations, contracts, policies, and procedures in its reported financial activity.

We conducted the audit in accordance with the Government Auditing Standards for
performance audits issued by the Comptroller General of the United States. Our audit
objectives, scope, methodology, and criteria are detailed in Appendix B.


Objective 1 – Did CSD officials comply with laws, regulations, contracts, policies,
and procedures in its reported performance measurements?

Finding 1 – Laredo officials did not properly report On-Board Strength (OBS)
attendance.

Laredo officials complied with laws, regulation, contracts, policies, and procedures in
reporting performance regarding outreach and admissions, student accomplishments,
and placements. However, Laredo officials did not report student attendance as
required by the PRH. Specifically, we identified 52 students with either unreported
absences, inappropriate UPAL use, unsupported PDOF, or being AWOL excessively.
Of the 52 students, Laredo officials should have separated 26 of them per the PRH and
these 26 students had 1,571 questionable days of attendance. However, Laredo
officials did not separate the students and, therefore, the students were included in
Laredo’s reported OBS in violation of the CSD contract, which resulted in CSD owing
liquidated damages under the contract totaling $96,962.

Student attendance is an important performance measure of Job Corps centers.
Student attendance is recorded in the Center Information System (CIS), which produces
the OBS calculation. Job Corps defines OBS as ”an efficiency measure that depicts the
extent to which the centers operate at full capacity. This measure reflects quarterly
cumulative results. The national goal for OBS is 100 percent.”



                                                                     Laredo Performance Audit
                                            5                      Report No. 09-07-002-01-370
                                                 U.S. Department of Labor – Office of Inspector General

The PRH Chapter 6.1 – R.1 requires centers to establish and implement a system that
tracks and documents the whereabouts of each student. The system must include,
among other controls, bed checks, morning attendance checks, attendance records for
all classes, and daily sign-in rosters. Students on duty but not at the center, such as for
Work-Based-Learning (WBL) activities, must be accounted for by being Present for Duty
Off Center (PDOF) or on approved leave. Students unaccounted for are Absent
Without Leave (AWOL), and the PRH requires separation from Job Corps for being
AWOL excessively.

Further, CSD’s contract with the Department of Labor, (DOL) states:

        . . . . liquidated damages will be assessed for failure to comply with
        regulations for separating students. Specifically, the contractor agrees to
        comply with the current requirements for separating students from the
        program. The contractor agrees further that the refundable cost to the
        Government for each day a student is retained (counted in the reported
        on-board strength) in violation of Job Corps requirements, is determined
        by dividing the “annual student cost” (“cost per student year”), as stated in
        the contract, by 365. If the annual student cost is not stated for any given
        year, it shall be computed by dividing the total contract amount for the
        year by the total planned average on-board strength.

In PY 2005, Laredo’s refundable cost was $61.721 per student per day.

To test the controls and overall accountability, we identified a universe of 499 students
served and selected a statistical sample of 117 students. We tested each student file to
determine if (1) reported attendance was supported by rosters and/or bed checks, and
(2) reported leave complied with the PRH requirements.

We concluded Laredo’s controls over student attendance needed to be improved. In 52
of 117 students’ files examined, accountability was not fully documented and did not
comply with PRH requirements. Of these 52 students, Laredo officials should have
separated 26 students earlier under PRH requirements, and Laredo officials should not
have included them in the OBS. We determined that Laredo officials retained these
students in the program for 1,571 days in violation of Job Corps requirements, which
overstated OBS. Specifically:

    •   Unrecorded Absences – 7 of the 117 (6 percent) students had unrecorded
        absences, which if properly recorded, would have caused the students to be
        separated earlier under PRH requirements. However, these 7 students were
        retained and overstated OBS by 264 days

    •   Unsupported Attendance at WBL Activities – 13 of 117 (11 percent) students
        had 616 days of unsupported attendance while participating in WBL program
1
 Laredo’s annual contract amount of $5,631,950 divided by planned average OBS of 250, the result of
$22,528 is then divided by 365 days

                                                                            Laredo Performance Audit
                                                  6                       Report No. 09-07-002-01-370
                                           U.S. Department of Labor – Office of Inspector General

       activities should have been separated and OBS was overstated by those 616
       days

   •   UPAL for Reasons Not Allowed – 2 of 117 (2 percent) students used UPAL for
       reasons not allowed by the PRH and should have been separated earlier, which
       overstated OBS by 42 days

   •   AWOL Days Exceeded Limitations – 4 of 117 (3 percent) students were retained
       beyond the PRH required separation date for AWOL use and overstated OBS by
       649 days

In summary, CSD did not ensure student attendance was accurate for 52 of 117
students at Laredo resulting in 1,571 questionable days of attendance. Of the 52
students, Laredo officials were required per the PRH to have separated 26 of them.
However, students were not separated and therefore were calculated in Laredo’s
reported OBS in violation of the CSD contract, which resulted in CSD owing liquidated
damages of $96,962.

These problems and the questionable days are discussed in more detail in the following
sections.

Unrecorded Absences

We tested a statistical sample of 117 students by comparing the reported attendance as
shown on the Employment Training Administration, Form 6-40 (Student Profile), to bed
check reports and/or sign in rosters. Of the 117 students, 7 students (6 percent) had
unrecorded absences and should have been separated earlier. These were days
Laredo officials reported the student as being at the center, but a bed check report or
roster did not support the attendance. This occurred because there was no monitoring
or reconciliation of the attendance reports to the CIS input to ensure that all students not
on bed check reports or rosters were input correctly to the CIS as missing. As a result,
these students were incorrectly shown as present. If the unrecorded absences had
been recorded as AWOL, these 7 students would have violated the PRH retention
requirements, and Laredo officials would have been required to separate them.
Instead, Laredo officials retained these 7 students in violation of the PRH for 264 days
even though they exceeded AWOL limitations. As a result, Laredo officials overstated
the OBS by 264 days, and at the daily contract rate, CSD owes $16,294 (264 days at
$61.72 per day) in liquidated damages.

For example, according to the CIS, one student was on center December 5, 2005
through December 14, 2005. However, the bed check reports and rosters showed this
student was missing for all these days. This would have given the student 6
consecutive AWOL days on December 12, 2005, when he should have been separated
under PRH requirements. Instead, Laredo officials retained him until February 10,
2006, which totals 40 training days beyond his 6th consecutive AWOL day.



                                                                      Laredo Performance Audit
                                             7                      Report No. 09-07-002-01-370
                                          U.S. Department of Labor – Office of Inspector General

Unsupported Attendance at WBL Activities

In our sample, 13 of the 117 (11 percent) students had WBL activities and were on
PDOF status for a total of 616 days. We reviewed each file for a WBL agreement that
met PRH accountability requirements and student absence reporting. However, none of
the WBL agreements met PRH requirements or had any student absence reporting.

The PRH, Chapter 3.7 – R.1 requires centers to use WBL at employer sites as a
primary source of vocational learning. The PRH requires that centers have a WBL
agreement with each employer that, among other things, requires employers to report
student absences.

We contacted several WBL employers. Employers were unaware that their Laredo
student’s employment was WBL experience. Employers considered the students to be
employees. One employer stated that the student was his son and had worked for him
before, during, and after his enrollment at Laredo. He was unaware of any
responsibility to report student absence. Based on our discussions with employers and
the review of the student’s files, we concluded Laredo’s WBL activities did not meet
PRH requirements and the lack of student absence reporting made the PDOF
questionable.

This occurred because, during PY 2005, the Laredo WBL manager did not understand
the PRH requirements. Prior to our audit, Laredo officials had recognized this issue and
had replaced the WBL manager. We expanded our tests to the current program year
and confirmed Laredo officials had corrected this situation.

However, during PY 2005, there was no student accountability during WBL activities. In
the worst case reviewed, a student was placed on PDOF for WBL activities for 194 days
(over 6 months) and during this time did not have any absences reported. We were
unable to determine if this or any of the other 13 students in our sample using PDOF for
WBL activities had absences reported to Laredo officials. Therefore, the 616 days
overstated the OBS, and we are questioning these days which, at the liquidated
damages contract rate of $61.72, totals $38,020.

UPAL For Reasons Not Allowed

For our sample of 117 students, we examined each leave occurrence for each student
to determine if the leave was appropriate under the PRH. We found Laredo officials
had placed 2 students on UPAL for reasons not allowed by the PRH. These students
were retained a total of 42 days in violation of PRH requirements.

The PRH Chapter 6.1 - R.1 (Exhibit 6-1) allows UPAL status for the following purposes:

   •   Absence due to family compassion or hardship
   •   Court appearance as a defendant



                                                                     Laredo Performance Audit
                                           8                       Report No. 09-07-002-01-370
                                          U.S. Department of Labor – Office of Inspector General

   •   Pending results of disciplinary fact finding when deemed necessary to remove
       student from center
   •   Elective medical/dental treatment
   •   When all other leave time is exhausted

Laredo officials, however, used UPAL for other reasons. In one case, a student decided
to resign and left Laredo on November 27, 2005. Laredo officials placed the student on
AWOL for 3 days and then switched the student to UPAL for 4 days to “reconsider” his
resignation. After 4 days, Laredo officials then switched the student back to AWOL for 4
days. Laredo then had winter break, and the student was given 18 paid days off. After
winter break ended on January 4, 2006, the student was placed on AWOL for 6 days
until January 10, 2006, at which time Laredo officials separated the student for reaching
the AWOL limit of 12 days in a 180-day period. Since “reconsidering” a resignation from
Job Corps is not an acceptable reason for UPAL, we concluded the student should have
been separated 34 days earlier on December 5, 2005, (6 AWOL days after leaving the
center).

The other case was similar.

According to Laredo officials, the reasons stated on the leave slips (as quoted above)
were not all inclusive. They stated that, although the leave slips indicated the UPAL
was to “rethink “or “reconsider” which were not allowable reasons, there was usually an
allowable underlying reason. As an example, they stated that a student might have to
reconsider her commitment due to hardship created by lack of childcare. They believed
the underlying reasons, although not documented, made the UPAL allowable.

We concluded Laredo officials should not have approved the UPAL if an inappropriate
reason for UPAL was shown on the UPAL leave document. These students’ lengths of
stay were inappropriately prolonged, and Laredo’s student attendance and resulting
OBS were overstated by these 42 days. Using the contract rate, this totals $2,592 in
liquidated damages (42 days at $61.72 per day).

AWOL Days Exceeded Limitation.

For our sample of 117 students, we identified all instances of AWOL and counted the
AWOL days to determine if Laredo exceeded the PRH limitations for AWOL. In some
cases, we looked back to PY 2004 to determine AWOL usage just prior to PY 2005.

The PRH Chapter 6.1 – R.1 (Exhibit 6-1) sets the AWOL limitations as 6 consecutive
AWOL days or 12 AWOL days in a 180-day period. The PRH requires centers to
separate any student exceeding these limitations.

Laredo officials permitted 4 of the 117 (3 percent) students to exceed the PRH AWOL
limitations. Laredo officials should have separated the 4 students in our sample in PY
2004, and these students should not have been at Laredo at all in PY 2005. Overall,



                                                                     Laredo Performance Audit
                                            9                      Report No. 09-07-002-01-370
                                           U.S. Department of Labor – Office of Inspector General

Laredo officials incorrectly included these 4 students in its OBS in PY 2005 for a total of
649 student days.

This violation of the PRH and subsequent failure to separate the 4 students occurred
because Laredo officials did not have an adequate method to identify all students who
exceeded AWOL limitations. Although the CIS recorded AWOLs, it did not
electronically identify excessive AWOL usage. Further, Laredo officials did not establish
an effective method of monitoring AWOL days. Subsequent to our audit period, the CIS
was changed to identify students exceeding AWOL limitations.

As a result, in PY 2005, Laredo officials allowed students to exceed PRH requirements
for AWOL use. This violation in AWOL usage resulted in 4 students not being
separated in accordance with the PRH and overstating Laredo’s OBS by 649 days. At
the PY 2005 contract rate of $61.72 per student day, this totaled $40,056 in liquidated
damages.

Recommendations

We recommend that the National Director of Job Corps require Laredo officials to:

   1. Reconcile bed check reports and rosters to CIS input data.

   2. Approve UPAL for only PRH allowable reasons.

   3. Pay $96,962 in liquidated damages.

We did not make any recommendations regarding PDOF use and AWOL limitations
because Laredo officials have already taken action to correct these weaknesses.


Auditee Response

The National Director, Office of Job Corps, generally agreed with our recommendations
by stating that the Dallas Regional Office of Job Corps would take the following actions:

   •   Request the Laredo Job Corps Center Director to reconcile the bed check reports
       and rosters.

   •   Instruct the Laredo Job Corps Center to provide training on the leave policy as
       presented in the Policy and Requirements Handbook.

   •   Begin the administrative process of securing the necessary information related to
       the recovery of $96,962 in liquidated damages.




                                                                      Laredo Performance Audit
                                            10                      Report No. 09-07-002-01-370
                                          U.S. Department of Labor – Office of Inspector General

OIG Conclusion

Based on the National Director’s response, we consider these recommendations
resolved and open. To close these recommendations, the Office of Job Corps needs to
provide documentation showing the corrective actions have been completed.


Finding 2 – Laredo officials did not always execute proper procedures for
admitting students.

Laredo officials did not comply with laws, regulations, contracts, policies, and
procedures for performing background checks. Specifically, Laredo officials did not
consistently obtain background checks for all incoming students. In a judgmental
sample of 30 participants, background checks were not completed for 23 participants.
This occurred because Laredo officials believed that the PRH allowed students to “self-
certify” they were clear of any court actions and believed Texas law prevented them
from obtaining background checks on minors. During the audit, Laredo officials agreed
they had misinterpreted the PRH and Texas requirements and would begin obtaining
background checks. As a result of not obtaining background checks, Laredo officials
were in a vulnerable position of not knowing whether participants were wanted by law
enforcement agencies, on probation or parole, under a suspended sentence, or under
the supervision of any agency.

We examined a judgmental sample of 30 student files to determine if Laredo officials
had complied with PRH requirements and had properly supported performance data for
outreach and admissions. For 23 of the 30 (77 percent) students, Laredo officials did
not complete a background check.

Without the background checks, Laredo officials did not have assurance that they
complied with PRH requirements. PRH Chapter 1.2 – R.4 requires centers to “conduct
a background check to confirm that the applicant is not on probation, parole, under a
suspended sentence, or under the supervision of any agency as a result of court action
or institutionalization, . . .” Laredo officials did not comply with this requirement.

Recommendations

   4. We recommend that the National Director of Job Corps require Laredo officials to
      obtain background checks on all incoming students.


Auditee Response

The Office of Job Corps stated that on April 4, 2007, a PRH Change Notice was issued
to provide additional guidance regarding background checks. In addition, the Office of
Job Corps agreed to ensure the Laredo Job Corps Center conducted background
checks on all Job Corps applicants.

                                                                     Laredo Performance Audit
                                           11                      Report No. 09-07-002-01-370
                                           U.S. Department of Labor – Office of Inspector General

OIG Conclusion

Based on the National Director’s response, we consider this recommendation resolved
and open. To close these recommendations, the Office of Job Corps needs to provide
documentation showing the corrective actions have been completed.


Objective 2 – Did Laredo officials follow applicable laws, regulations, contracts,
policies, and procedures relevant to its reported financial activities?

We used the procedures set forth in the Government Accountability Office’s Financial
Audit Manual. In doing this, we performed the following general procedures:

   •   Identified and evaluated internal controls at both the corporate and center level
   •   Performed testing of internal controls on a judgmental sample of transactions
   •   Reconciled the general ledger to the reported costs to DOL
   •   Performed walk-through’s of transactions at Laredo
   •   Performed substantive analytical procedures on Laredo expenditures

Based on our review, nothing came to our attention during our audit which indicated
Laredo officials did not follow applicable laws, regulations, contracts, policies, and
procedures relevant to its reported financial activities.




Elliot P. Lewis
July 24, 2007




                                                                      Laredo Performance Audit
                                            12                      Report No. 09-07-002-01-370
           U.S. Department of Labor – Office of Inspector General




Exhibits




                                      Laredo Performance Audit
            13                      Report No. 09-07-002-01-370
                                            U.S. Department of Labor – Office of Inspector General

                                                                                     Exhibit 1
                     Laredo Job Corps Center
                        Program Year 2005
              Reported Performance Measures Results


Outreach & Admissions
  Total Female Arrivals                                                 103
  Total Arrivals                                                        259


Training
  High School Diplomas /GED’s                                            97
  Vocational Completions                                                169
  Literacy Gain                                                         132
  Numeracy Gain                                                         133


Placement
  Job Training Matches                                                   89
  Post Enrollment                                                       177
  Graduate Placements                                                   152
  Graduate Average Wage                                                 $7.34
  No. of Graduates Still in Job after 6 months                           43
  6 Months Earning                                                      $336.91
  No. of Graduates Still in Job after 12 months                          40


Student Accountability
  Average On Board Strength                                             241
  90 Day Separations                                                      5
  Zero Tolerance Separations                                             15




                                                                       Laredo Performance Audit
                                             14                      Report No. 09-07-002-01-370
                                                       U.S. Department of Labor – Office of Inspector General

                                                                                                Exhibit 2
                                       Laredo Job Corps Center
                                          Program Year 2005
                                            Expenditures

Center Operations:
                ACADEMIC PERSONNEL EXPENSE                                                         $ 346,272
                OTHER ACADEMIC EXPENSE                                                                 50,196
                VOC PERSONNEL EXPENSE                                                                  79,227
                OTHER VOC EXPENSE                                                                     473,449
                SOCIAL SKILLS PERSONNEL EXPENSE                                                     1,132,930
                OTHER SOCIAL SKILLS EXPENSE                                                            99,939
                FOOD                                                                                  434,272
                CLOTHING                                                                               70,462
                SUPPORT SERVICE PERSONNEL EXPENSE                                                     174,573
                OTHER SUPPORT SERVICE EXPENSE                                                          47,434
                MEDICAL PERSONNEL EXPENSE                                                             189,538
                OTHER MEDICAL EXPENSE                                                                  58,103
                OTHER CHILD CARE EXPENSE                                                                   10
                ADMIN PERSONNEL EXPENSE                                                               727,417
                OTHER ADMINISTRATIVE EXPENSE                                                          115,708
                FACILITIES MAINTENANCE PERSONNEL EXPENSE                                              180,088
                OTHER FACILITIES MAINTENANCE EXPENSE                                                  130,076
                SECURITY PERSONNEL EXPENSE                                                            191,956
                OTHER SECURITY EXPENSE                                                                 12,447
                COMMUNICATIONS                                                                         62,407
                UTILITIES AND FUEL                                                                    307,743
                INSURANCE                                                                              86,305
                MOTOR VEHICLE EXPENSE                                                                  26,093
                TRAVEL AND TRAINING                                                                    50,664
                TOTAL – Center Operations                                                         $5,047,309


Outreach and Admissions
               PERSONNEL EXPENSE                                                                  $ 139,529
               STAFF TRAVEL/TRAINING EXPENSE                                                         10,493
               FACILITIES EXPENSE                                                                     2,500
               MEDIA ADVERTISING EXPENSE                                                             38,095
               OTHER EXPENSE                                                                         15,311
               TOTAL – Outreach and Admissions                                                    $ 205,928


Career Transition Services
                  PERSONNEL EXPENSE                                                               $ 125,825
                  STAFF TRAVEL/TRAINING EXPENSE                                                      11,449
                  FACILITIES EXPENSE                                                                  2,500
                  MEDIA ADVERTISING EXPENSE                                                          16,051
                  OTHER EXPENSE                                                                      32,553
                  TOTAL – Career Transition Services                                              $ 188,378


                Total – Laredo Job Corps CenterReported Expenditures                              $5,441,615




                                                                                  Laredo Performance Audit
                                                        15                      Report No. 09-07-002-01-370
             U.S. Department of Labor – Office of Inspector General




Appendices




                                        Laredo Performance Audit
              16                      Report No. 09-07-002-01-370
                                          U.S. Department of Labor – Office of Inspector General

                                                                                 Appendix A
Background

Job Corps is a national program, administered by the U.S. Department of Labor (DOL),
Office of Job Corps, which offers a comprehensive array of career development
services to at-risk young women and men, ages 16 to 24, to prepare them for
successful careers. Job Corps was established by the Economic Opportunity Act of
1964 and is currently authorized under the Workforce Investment Act of 1998, Part 670,
Title I-C. The Job Corp objective is to assist young people in acquiring skills needed to
achieve their career goals, live independently, and support them in entering and
remaining in meaningful jobs or further their education.

The Laredo Job Corps Center is operated by Career Systems Development Corporation
(CSD) under contract with the Office of Job Corps. Laredo has both residential and
non-residential students. Laredo’s capacity for training is 250 students.

The contract in effect during the scope of our audit involved two companies. Originally,
in 2001, the Office of Job Corps awarded the contract to operate the Laredo Job Corps
Center to Vinell Corporation. The initial contract period was for one year with three
option years. On February 27, 2004, Vinell Corporation, with the Office of Job Corps
concurrence, transferred the contract responsibilities to CSD. The initial negotiated
award amount was $10,841,900 and was a cost-plus-fixed-fee contract.

In 2003, Job Corps modified the contract to become a performance-based contract.
This tied option years, incentive fees, and bonuses directly to CSD performance in
operating Laredo. Annually, Job Corps sets performance goals for each center based
on the performance measures shown in Exhibit 1, including OBS. Job Corps based the
amount of incentive fee and performance bonus paid on the achievement of these
goals. The higher the achievement of these goals, including OBS, the higher the fee
and potential bonus.




                                                                     Laredo Performance Audit
                                           17                      Report No. 09-07-002-01-370
                                          U.S. Department of Labor – Office of Inspector General

                                                                                 Appendix B
Objectives, Scope, Methodology, and Criteria

Objectives

Our audit objectives were to answer the following two questions:

   1. Did Laredo officials comply with laws, regulations, contracts, policies, and
      procedures in its reported performance measurements?

   2. Did Laredo officals comply with laws, regulations, contracts, policies, and
      procedures in its reported financial activity?


Scope

Our audit covered the performance and financial reporting at the Laredo Job Corps
Center located in Laredo, Texas and operated by Career System Development
Corporation (CSD). Our testing included performance and financial activity for Program
Year (PY) 2005, which began July 1, 2005, and ended June 30, 2006. We performed
our testing from November 2006 through May 2007 at the Laredo Job Corps Center and
at CSD Headquarters in Rochester, New York.

We conducted this performance audit in accordance with government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient and appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Methodology

To accomplish our audit objectives, we reviewed applicable criteria and compared the
requirements to the reported performance and financial results.

We used a combination of statistical and non-statistical sampling to examine
performance data. For our examination of Laredo’s controls over student accountability,
GED and high school diplomas, vocational completions, outreach and admissions, and
career transition services, we obtained a judgmental sample of 30 student files. We
examined the contents of these student files to verify the documentation supported the
reported student performance and attendance. We also interviewed center personnel
about their responsibilities and procedures.

We used statistical sampling to test whether the center’s reported OBS was complete
and accurate. Our universe of 499 students included all students who had attended
Laredo for a minimum of one day in PY 2005. We took a statistical simple random
sample of 117 students. We reviewed each student file for center reported attendance

                                                                     Laredo Performance Audit
                                           18                      Report No. 09-07-002-01-370
                                           U.S. Department of Labor – Office of Inspector General

and leave history, and verified this with center documentation detailing student
whereabouts and accountability including bed check reports, morning reports, and sign-
in rosters.

In our examination of the center’s financial activity, we performed substantive analytical
procedures and detailed controls tests. We interviewed relevant center and corporate
personnel and examined center and corporate documentation to gain an understanding
of the centers internal controls over financial data. We tested the controls at CSD
corporate offices and at Laredo for reliance and tested judgmentally selected
transactions. We traced Laredo’s reported expenditures to the general ledger,
reconciled Laredo’s billings to Department of Labor to the reported expenditures, and
examined supporting documentation as we considered necessary.

Criteria

We used the following criteria to perform this audit:

   •   Federal Acquisition Regulations
   •   Job Corps Policy and Requirements Handbook
   •   Laredo Job Corps Contract




                                                                      Laredo Performance Audit
                                            19                      Report No. 09-07-002-01-370
                                     U.S. Department of Labor – Office of Inspector General

                                                                            Appendix C
Acronyms and Abbreviations


AWOL                         Absent With Out Leave
CIS                          Center Information System
CSD                          Career Systems Development Corporation
DOL                          U.S. Department of Labor
GED                          General Education Diploma
Job Corps                    Office of Job Corps
Laredo                       Laredo Job Corps Center
OBS                          On-Board Strength
OIG                          Office of Inspector General
OMS                          Outcome Measurement System
PDOF                         Present for Duty Off Center
PRH                          Policy and Requirements Handbook
PY                           Program Year
UPAL                         Unpaid Administrative Leave
WBL                          Work Based Learning




                                                                Laredo Performance Audit
                                      20                      Report No. 09-07-002-01-370
                                  U.S. Department of Labor – Office of Inspector General

                                                                         Appendix D
Agency Response to Draft Report




                                                             Laredo Performance Audit
                                   21                      Report No. 09-07-002-01-370
U.S. Department of Labor – Office of Inspector General




                           Laredo Performance Audit
 22                      Report No. 09-07-002-01-370
                                   U.S. Department of Labor – Office of Inspector General




IN ORDER TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:       http://www.oig.dol.gov/hotlineform.htm
Email:        hotline@oig.dol.gov

Telephone:    1-800-347-3756
              202-693-6999

Fax:          202-693-7020

Address:      Office of Inspector General
              U.S. Department of Labor
              200 Constitution Avenue, N.W.
              Room S-5506
              Washington, D.C. 20210



                                                              Laredo Performance Audit
                                    23                      Report No. 09-07-002-01-370
